        REVIEW OF A SELF-CONTAINED
    SELF-RESCUER PROCUREMENT CONTRACT
        AND THE PORTAL-PACK RECALL
         FOR THE MINE SAFETY AND
           HEALTH ADMINISTRATION




            U.S. Department of Labor
          Office of Inspector General
Office of Analysis, Complaints and Evaluations




                    Current Report No. 2E-06-001-0003
                                  (16-OACE-98-MSHA)
                              Date: March 31, 1999


                        TABLE OF CONTENTS



                                                             Page

Executive Summary.......................................        2

I.    Introduction.......................................       4

II.   Background.........................................       4

III. Methodology........................................        8

IV.   Findings, Conclusions and Recommendations..........      10

           1.   Procurement Contract.....................      12

           2.   Communications...........................      14

           3.   Quality Assurance........................      20

           4.   Training Standards.......................      23

           5.   Standards for Certification and Audit....      25

           6.   Developing Information Resources.........      28

           7.   An MSHA Focal Point for Recalls..........      31

Appendix

A. Glossary of Acronyms.................................       34

B. MSHA’s Response to the Draft Evaluation Report.......            36

C. NIOSH’s Response to the Draft Evaluation Report......            41

D. OACE’s Response to NIOSH’s Comments..................48
-3-
                    EXECUTIVE SUMMARY

At the request of the Assistant Secretary for Mine Safety and
Health, the Office of Inspector General conducted an evaluation
of two similar complaints that involved the Mine Safety and
Health Administration's regulation and procurement of self-
contained self-rescuer devices. Miners wear self-contained
self-rescuers to generate oxygen when the air becomes toxic.
The first issue was raised in a letter to a Congressman in
which many complaints were made regarding the Mine Safety and
Health Administration (MSHA), including a concern that MSHA had
exercised favoritism in entering into a sole-source procurement
contract for self-contained self-rescuers (SCSRs) with the Mine
Safety Appliance Company (MSA).

The second complaint was received from the United Mine Workers
of America (UMWA) and included two accusations. First, UMWA
officials stated that certain MSHA actions in conducting the
recall of MSA's Portal-Pack SCSR were intended to protect the
company’s economic interests. Second, UMWA expressed concern
that MSHA had mishandled many aspects of the Portal-Pack
recall.

Neither our review of MSHA’s procurement of SCSRs from MSA nor
our evaluation of the Portal-Pack recall found any evidence
indicating collusion or favoritism between MSHA and MSA.
However, to improve the effectiveness of program operations and
enhance stakeholder confidence in the agency, the following
issues need to be addressed. Sole source procurement and the
certification, audit and recall of SCSRs merit attention by
MSHA. Since responsibilities for the certification, audit and
recall of SCSRs are shared with the National Institute for
Occupational Safety and Health (NIOSH), cooperative actions by
the two agencies will be required to accomplish all of the
actions we are recommending.

With respect to MSHA’s procurement of 400 SCSRs from MSA, we
concluded that the agency’s use of the sole-source process was
not fully justified in this instance and have recommended that
procurement practices be reviewed with the objective of
expanding the use of competitive bids and ensuring conformance
with Department of Labor regulations.



                           -2-
The timeliness and consistency of MSHA communications with
stakeholders could be improved to increase the confidence of
the mining community in the regulation of SCSRs. Specific
communication related issues warranting MSHA’s attention
include timely and accurate notifications of product defects,
policies and procedures to clarify responsibilities for
disseminating information, and effective coordination of
official positions with NIOSH.

Our review identified other MSHA opportunities for implementing
programmatic improvement in quality assurance, data collection
of mine information, revision of regulatory standards and
procurement practices. Specifically, clarification of MSHA and
NIOSH roles in ensuring manufacturer compliance with quality
assurance in an amended memorandum of understanding offers
significant promise in reducing the number of SCSR recalls. An
additional opportunity for agency improvement exists in
increasing the frequency of data collection from mines on SCSR
usage. Revisions to standards for certification, audit and
training could reduce the number of recalls, improve
surveillance and ensure that miners receive adequate SCSR
training.

This report contains MSHA’s response to our draft report. The
MSHA response is found in the body of the report and in its
entirety in Appendix B. MSHA agreed with all our
recommendations and we consider them resolved. We are awaiting
written confirmation of MSHA’s corrective actions so that we
can close the recommendations.

Due to the close regulatory relationship that the Department of
Labor shares with NIOSH on SCSRs, we also provided NIOSH with
our draft report for comments. Since our report was addressed
to MSHA, we have not included NIOSH comments in the body of
this report. However, the NIOSH recommendations for this
report are included in Appendix C. Our response to the NIOSH
comments is located in Appendix D. We have included many of
the NIOSH comments in our report.




                           -3-
I.   INTRODUCTION

In response to a Congressional inquiry and a request by MSHA
management, the Office of Inspector General’s Office of
Analysis, Complaints and Evaluations, conducted an evaluation
of an MSHA sole-source procurement contract for SCSRs and the
agency’s handling of the Portal-Pack recall. The purpose of
our review was to conduct an evaluation of two similar
complaints that involved the Mine Safety and Health
Administration's regulation and procurement of SCSRs. The
objectives of our review were to determine whether: (1) MSHA’s
actions with respect to the procurement and the recall of SCSRs
were consistent with applicable laws, regulations and
procedures; (2) MSHA’s procurement or recall actions
financially benefitted a specific company or created the
appearance of such favoritism; and, (3) opportunities exist for
improving the certification, audit and recalls of SCSRs.

This review was conducted in two phases. Phase one, addressing
a complaint of an exclusive contractual relationship between
MSHA and MSA, was initiated on February 5, 1997, and completed
on November 1, 1997. Phase two, evaluating MSHA’s handling of
the Portal-Pack recall and concerns regarding commercial
protection of MSA, was initiated on November 10, 1997. This
report summarizes all evaluation work conducted on MSHA’s sole-
source contract complaint and the recall of the Portal-Pack.


II. BACKGROUND

The first complaint alleged that the Mine Safety and Health
Administration was favoring certain companies in a sole-source
procurement contract. This issue was raised in a 1996 letter
from Congressman Dan Schaefer to the Secretary of Labor. On
September 13, 1996, the CSE Corporation sued MSHA for
injunctive relief, protesting its sole-source procurement
contract with MSA. MSHA subsequently agreed to reduce the size
of the procurement and to conduct all subsequent procurement
using a competitive bid process.

By a memo dated November 3, 1997, the Deputy Assistant
Secretary for Mine Safety and Health informed the Office of
Inspector General of issues raised by an administrator of the
UMWA. A letter on October 20, 1997, from the UMWA to the
Assistant Secretary, complained that MSHA had mishandled the


                           -4-
recall of Portal-Packs manufactured by MSA. An allegation made
to the Deputy Director of Technical Support by an official of
the UMWA Department of Occupational Health and Safety at an
October 28, 1997 meeting, indicated that MSHA was favoring MSA.
This complaint was repeated in an October 31, 1997 telephone
call between the UMWA and the Deputy Assistant Secretary.

The Mine Safety and Health Administration’s mission is to
protect miner safety. MSHA is authorized to conduct regulation
of the mining industry under the “Federal Mine Safety and
Health Act” of 1977, in Public Law 95-164. Sections specific
to SCSR regulation are contained in the Code of Federal
Regulations (CFR).

CFR 75:7514 requires that all persons who enter a mine have a
SCSR available to them that will provide one hour of oxygen
when it is donned and activated. Many SCSRs chemically
generate oxygen when started, although some SCSRs contain
compressed oxygen. SCSRs are worn on coal miners’ belts,
mounted on mining machinery, cached within the mine and stored
above ground.

MSHA conducts certification and approval of SCSRs in
collaboration with the National Institute for Occupational
Safety and Health (NIOSH). A memorandum of understanding,
dated May 4, 1995, generally describes this relationship. NIOSH
has the lead in insuring that SCSRs pass set scientific
standards required in Title 42 CFR Part 84.1-84.1158 and MSHA
is responsible for regulating mine compliance. Although MSHA
and NIOSH have joint responsibility for quality assurance,
NIOSH also takes the lead in certifying manufacturing quality
control.

The certification and audit programs are highly technical and
both agencies employ scientific experts at various centers.
MSHA’s two sites for handling technical evaluation and
oversight of SCSRs had been the Approval and Certification
Center in Triadelphia, WV, and the Pittsburgh Safety and Health
Technology Center in Bruceton, PA. Recently, technical
evaluation and oversight of SCSRs was transferred to MSHA’s
Bruceton facility. The two primary
NIOSH facilities responsible for SCSR testing are the
Pittsburgh Research Labs (PRL) in Bruceton, PA, and the
Certification and Quality Assurance Branch (CQAB) in
Morgantown, WV, at the Appalachian Laboratory for Occupational


                           -5-
Safety and Health. The CQAB has the authority and
responsibility to interpret and implement the 42 CFR 84 design,
quality assurance and performance regulatory standards. In
addition, CQAB conducts investigations to determine SCSR
compliance with certification standards. The NIOSH PRL is
responsible for human physiology research, SCSR technology
research, environmental testing and evaluation of field
deployed SCSRs.



SCSRs undergo testing and certification and must meet MSHA and
NIOSH standards before they can be sold as approved safety
devices. As part of the certification process, manufacturers
submit a quality control plan describing how quality will be
ensured. Ensuring quality control processes is an integral
part of the certification.

SCSRs have a set length of service or shelf-life. The Portal-
Pack SCSR model manufactured by MSA has dates stamped on the
housing of the unit showing a date of production, a serial
number, and an in-service date that controls when the unit must
be removed from service. The in-service date begins when the
unit is deployed into the mine environment. Currently, the
manufacturer determines the service life.

MSHA and NIOSH conduct a joint testing or audit program of SCSR
models that have been approved and sold to mines. The audit,
which NIOSH funds, samples from a proportional but not a
statistically representative sample of SCSR models that are in
service. The NIOSH group at PRL tests SCSRs to verify that
they are working according to established standards. The audit
program has been credited by MSHA and NIOSH with being highly
effective in discovering SCSR deficiencies.

MSHA has expended considerable resources during the 1980s and
1990s certifying and overseeing company recalls of SCSRs and
other types of mining equipment. Section CFR 75.1714-3.d gives
MSHA authority to remove from service any SCSR that does not
meet specified test requirements and ensures that repairs are
completed by the manufacturer. Recalling SCSRs has become a
regular ongoing part of MSHA’s operations.

The chronology of events that occurred in the Portal-Pack
recall is briefly summarized as follows. During a joint


                           -6-
MSHA/NIOSH audit in March 1997, KO2 chemical dust was
identified in the breathing tube of two SCSRs. The KO2
chemical is used to generate oxygen when activated.

Continued investigation by MSHA and NIOSH of the chemical dust
problem led to the classification of a critical defect on June
27, 1997. MSA was notified to take corrective actions and to
stop sale of the Portal-Pack as a certified device. MSA
proposed two corrective action plans which were rejected by
NIOSH/MSHA as inadequate. Finally, MSA proposed an interim
plan involving a new donning procedure, corrective retraining
of miners on the new operating procedure and daily visual
inspection of Portal-Packs to find any dents or abrasions that
could be responsible for loose dust in the device. The revised
donning procedure called for the miner to blow into a
mouthpiece three times in order to clear away any dust that may
have migrated up into the breathing tube from the chemical bed.
This corrective action plan, along with a stop-sale of
additional Portal-Packs by MSA, was accepted by MSHA/NIOSH as
an interim solution, while MSA attempted to fully resolve the
chemical dust problem and other identified deficiencies.

MSA distributed a user safety notice along with an instruction
manual on the revised donning procedure on July 11, 1997, to
customers it was able to identify. Because MSA was not able to
identify all customers and stakeholders, not everyone received
notification of the Portal-Pack recall. The notice on
conducting training within 30 days was stated as a
recommendation and not as a regulatory requirement.

MSHA subsequently distributed an advisory letter to district
managers on July 18, 1997, stating that training was to be
conducted within 30 days of the distribution of the user safety
notice. No direct notification was made to the mines and other
stakeholders by MSHA until the issuance of a Program
Information Bulletin on November 13, 1997, following the
resolution of several policy issues. MSHA requested that all
inspection personnel in the mine districts be alerted to the
user safety notice and asked that inspectors communicate
conditions of the recall to the mines.

Continued   testing of the Portal-Pack during July 1997, found
that dust   contamination was occurring at a much higher
frequency   than originally estimated. Of 59 Portal-Packs
examined,   11 (19 percent) were found to contain KO2 dust in the


                             -7-
breathing tubes or mouthpieces. In addition, problems
discovered with the firing mechanism and a leak in the
breathing tubes remained unresolved. In response, on August 8,
1997, NIOSH/MSHA mandated that MSA conduct a recall of all
Portal-Packs.

On August 15, 1997, MSA agreed to recall the Portal-Packs and
replace them with their new Life-Saver 60 SCSR. Some defects
with the new model had been recently discovered, but were
addressed by MSA in a revised design and manufacturing process.
MSA committed to an ambitious schedule of replacing the Portal-
Pack that depended on quick approval of the corrective changes
to the Life-Saver 60 by NIOSH and a replacement estimate of
5,490 Portal-Packs.

On August 22, 1997, MSHA, NIOSH and MSA met to discuss the
problems of the Life-Saver 60. At this meeting it was
determined that previous problems relating to the breathing bag
leaks of the Life-Saver 60 had been identified, that a
corrective plan had been developed and that there was not a
significant impediment posed to the replacement of Portal-Packs
with the Life-Saver 60. Subsequent delay in approving the
corrective changes to the Life-Saver 60 by NIOSH and a far
greater number of Portal-Packs in mines than had been
estimated, combined to prevent timely replacement on schedule.

UMWA officials state that they became aware of the severity of
the problems surrounding the recall in late September. The
UMWA requested a meeting with MSHA and NIOSH that was held on
October 28, 1997. At this meeting, it appeared that there was
a lack of regulatory consensus regarding the adequacy of the
interim plan and the Life-Saver 60 replacement. This moved the
UMWA to file for an injunctive action on November 17, 1997. On
November 18, 1997, NIOSH/MSHA decertified the Portal-Pack and
required that MSA accelerate the completion of the recall even
if it required replacement with SCSRs from other companies.
MSA responded by offering mine operators a payment of $365 for
each Portal-Pack replaced by an equivalent SCSR. Other
manufacturers also began to produce SCSRs to meet the sudden
demand for replacements. MSA acknowledged that their original
estimate of the Portal-Packs deployed in the mines was
inaccurate, and that 7,533 units needed immediate replacement.


III.   METHODOLOGY


                           -8-
Our evaluation had two phases. Our review first examined the
June 1996 MSHA sole-source procurement contract for SCSRs from
MSA. We then reviewed regulatory activity regarding the MSA
Portal-Pack recall.

By using a mixed methods approach, we were able to triangulate
our findings. An evaluation of this type collects information
using different methods. This method    improved measurement
and enhanced analytic findings.

The evaluation first reviewed company product information,
federal regulations, and MSHA policies and procedures.
Structured interviews were conducted with senior officials of
major groups of the coal mining communities. These groups
included: federal regulatory agencies, a union, manufacturers
of SCSRs, and professional associations.

Initial interviews with senior management from MSHA summarized
the allegations and the problems encountered with the Portal-
Pack recall. Interviews were then conducted with NIOSH
officials at the PRL and at the CQAB. Finally, interviews were
conducted with MSA and MSHA personnel at the Approval and
Certification Center and the Quality Assurance Division (QAD)
during the first two weeks of January 1998.

We reviewed 36 agency files covering QAD handling of SCSR
problem issues over the last 12 years. Of the 36 cases, we
selected 13 recall cases for comparison to the Portal-Pack.
Our criteria for selection included cases that had a recall or
retrofit action. Our analysis of cases provided comparative
information to assess the Portal-Pack recall, although some
gaps in MSHA’s case documentation were encountered.
Descriptive statistics of SCSR recalls were developed.

A data collection instrument was used to facilitate review of
archived records. The focus of the instrument was to collect
data on key recall characteristics. Key characteristics
included the time that elapsed for completion of the recall,
methods of communication, and noted abnormalities in
established procedures or regulations. The findings on other
regulatory efforts were then compared to the characteristics
collected on the Portal-Pack recall for comparative analysis.

We conducted our review according to the Quality Standards for


                           -9-
Inspections published by the President’s Council on Integrity
and Efficiency.




                          -10-
IV.   Findings, Conclusions and Recommendations


We found that although MSHA complied with DOL regulations in
executing a sole-source contract with MSA, the use of the sole-
source method for procuring the equipment could not be fully
justified. The contract resulted in a protest of the award by
the CSE corporation. This protest was settled to CSE’s
satisfaction.

MSHA did not favor MSA in the handling of the Portal-Pack
recall. The UMWA’s concern that MSHA was protecting the
commercial interests of the Mine Safety Appliance Company (MSA)
was based primarily on two observations. First, by delaying
and limiting the negative impact that would have ensued from
swiftly distributing a Program Information Bulletin (PIB) and
by giving MSA an extended time-frame to complete the recall, it
appeared to the UMWA that MSHA was acting to protect the
commercial interests of MSA. MSA was in the process of
distributing the new model Life-Saver 60. Second, the failure
to immediately survey other SCSR manufacturers for inventory or
manufacturing capacity that could have been directed toward
quick replacement of the Portal-Pack early in the recall
appeared suspicious to the UMWA.

OIG found that the distribution of a PIB for a recall can not
be used to accurately assess favoritism. While a PIB was
issued in a delayed manner in this case, only 30 percent of the
recalls we reviewed were publicized to the mining community
through the use of PIBs. A comparison of time- frames for the
completion of other SCSR recalls also does not provide
conclusive evidence that MSA’s recall schedule was unduly
extended, as factors such as the severity of the defect
identified and the estimated percentage of units affected would
require consideration. MSHA distributed a PIB concerning the
Portal-Pack recall on November 13, 1997.

We found that seven months elapsed between the start of the
Portal-Pack investigation and the distribution of the November
13, 1997 PIB. This elapsed time was not long in comparison to
other recalls examined. We found the length of time taken to
distribute a PIB from the start of an investigation ranges from
2 to 25 months. The time-frame needed depends on the
complexity of the defect.



                          -11-
MSHA officials stated that they typically undergo a three stage
process in conducting recalls and issuing a PIB. In the first
stage, which is usually short, the problem is identified. In
the second stage, the scope of the problem is determined which
can take significant periods of time. In the third stage, MSHA
determines and implements the actions necessary to address the
problem. Decisions regarding the issuance and timing of a PIB
or the use of alternative means of communication with the
mining community are predicated on the scope of the problem and
other considerations.

The completion of MSA’s recall was delayed by several factors.
In particular, NIOSH was unable to accomplish an expedited
certification of design changes for the improved Life Saver 60,
intended as the replacement for the defective Portal-Packs.
Following UMWA legal action, MSHA decertified the Portal-Pack
and accelerated the MSA recall, which required MSA to replace
the Portal-Pack SCSRs with models manufactured by other
companies, an action rarely noted in the other recalls we
reviewed. In addition, compliance with firm MSHA regulation
culminating in decertification was costly for MSA. The General
Manager of MSA’s Safety Product Division calculated that the
combined total cost to MSA of the Portal-Pack recall was $5
million.

OIG identified some unique findings in the Portal-Pack recall.
We found that MSA’s early estimate of the number of Portal-
Packs in use in the mines was significantly inaccurate. The
actual number of Portal-Packs needing replacement exceeded the
original estimate by 37 percent. There was a pattern of
inaccurate estimates across other recalls and retrofits
examined that also underestimated the number of SCSRs in the
mines from 20 to 28 percent.

We also found that MSHA did not independently verify the
inventory or manufacturing capacity of other SCSR companies
early in the recall. However, MSHA rarely took this action in
other recalls. The fact that MSHA did not initially survey
other sources of suppliers for replacement SCSRs does not
support a conclusion that MSHA favored MSA or improperly
handled the Portal-Pack recalls.

While this report focuses primarily on recommendations to
improve MSHA’s regulation of SCSRs, it also has potential
application to other areas of MSHA operations. Several themes


                          -12-
applicable to other MSHA areas emerged from our analysis. The
recommendations made in our review originate from analysis of
interviews and comparison of the Portal-Pack to other MSHA
recall and retrofit actions.




1.   Procurement Contract


MSHA complied with Federal and Department of Labor (DOL)
regulations for non-competitive procurement by announcing the
agency’s intent in June 1996, to award a sole-source contract
for SCSRs to MSA in the Commerce Business Daily (CBD) and by
requesting the approval of DOL’s Procurement Review Board
(PRB). However, MSHA’s use of the sole-source process was not
fully justified, although no evidence supported an exclusive
contractual relationship with MSA.   CSE did file a protest
against the contract award, which was settled in its favor by
changing the size of the contract and emphasizing future
competitive contracting practices.

MSHA was aware from both experience and research that a voice
amplification feature on SCSRs was needed to prevent inhalation
of CO during emergencies. MSA was the only company to address
this need. On June 21, 1996, MSHA announced in the CBD its
intent to award MSA a sole-source contract to produce a new,
improved SCSR model. MSHA’s rationale for the sole-source
award, which was articulated to the PRB, was that MSA could
produce a significantly smaller device than was currently
available, and that MSA's SCSR incorporated a "voice
amplification" capability which would allow a user, hands-free
communications ability in the event of an emergency. The MSA
SCSR was in the final stages of testing and expected to be
approved shortly by MSHA and NIOSH for manufacture.

MSHA was also aware that an MSA competitor, the CSE
Corporation, was testing a smaller and lighter version of the
SCSR. Although CSE was the manufacturer of SCSRs currently in
use by MSHA inspectors, the company’s next generation prototype


                            -13-
did not include a voice amplification device which MSHA had
stressed to the PRB was required. The PRB approved MSHA's
request to purchase the MSA SCSR sole-source, at a contract
value of $578,799.

On September 13, 1996, CSE submitted a protest of the MSA
sole-source award to the General Accounting Office (GAO), on
the basis that MSHA failed to consider its prototype SCSR,
which CSE claimed was smaller and lighter than the MSA
prototype. CSE also claimed that its SCSR could have been
adapted to incorporate a voice amplification device, had the
company been made aware of MSHA's technical specifications for
a next generation SCSR through a competitive bid announcement.
CSE withdrew its protest with GAO after MSHA agreed to reduce
the number of MSA SCSRs planned for use in the field by 50
percent and to make future procurement of SCSRs on a
competitive basis.

Because MSHA has previously purchased SCSRs from CSE and
continues to use CSE’s SCSRs in its inventory, we do not
conclude that MSHA has an exclusive sole-source relationship
with MSA. However, MSHA erred in assuming that a firm like
CSE, whose new prototype did not initially incorporate voice
amplification, could not adapt its prototype(s) to meet MSHA's
specifications. Obviously, CSE officials considered their
company capable of producing a SCSR that met MSHA’s
requirements and expected the opportunity to compete.


Recommendation

We recommend that the Assistant Secretary for Mine Safety and
Health ensure that MSHA:

1.   Review sole-source procurement practices to expand the use
     of competitive bids and ensure conformance with DOL
     regulations.

 MSHA Response

“We agree that the Mine Safety and Health Administration (MSHA)
should review sole-source procurement practices to expand the
use of competitive bids and ensure conformance with the
Department of Labor (DOL) regulations. MSHA has always and
will continue to foster competition to the maximum extent


                           -14-
possible by awarding contracts based on full and open
competition. In the case of sole-source procurement actions,
any proposed contract in excess of $25,000, to be awarded on
the open market, is synopsized in the Commerce Business Daily
(CBD). The purpose of the CBD announcement is to afford other
offerors the opportunity to make the MSHA contracting officer
aware of an equivalent product or service that their
firm/organization has to offer. When that situation occurs,
the MSHA contracting officer then affords that
firm/organization the opportunity to make an offer by providing
them with a solicitation document, in accordance with the
requirements of both Federal and DOL Acquisition Regulations.”

OIG’s Conclusion


On the basis of MSHA’s response, we consider this
recommendation resolved. To close this recommendation, we
would appreciate receiving a copy of the memorandum indicating
completion of a review of sole-source procurement practices to
expand the use of competitive bids and ensure conformance with
the Department of Labor (DOL) regulations.



2.   Communications


The timeliness and consistency of MSHA communications with
stakeholders could be improved to increase the confidence of
the mining community in the regulation of SCSRs. Specific
communication related issues warranting MSHA’s attention
include timely and accurate notifications of product defects,
policies and procedures to clarify responsibilities for
disseminating information, and effective coordination of
official positions with NIOSH. The following sections
summarize the results of our review of communications related
issues.

A.   Notification of Product Defects

The methods currently in use by MSHA for communicating
information about product defects did not ensure that all
appropriate parties received timely notification about problems
identified and remedial actions. During the Portal-Pack


                         -15-
recall, MSHA initially relied on a user’s notice distributed by
the manufacturer which did not reach all industry officials in
need of the information. While the Program Information
Bulletin (PIB) issued four months later was distributed widely
across the industry and provided comprehensive information,
this method of communication was not effective for instructions
requiring prompt implementation. MSHA generally used a variety
of communication techniques during the recalls we reviewed, and
the delayed issuance of the PIB during the Portal-Pack recall
was primarily attributable to the complexity of the policy
issues involved. However, the communication gaps we noted
highlight the need for MSHA to develop methods for rapidly
disseminating preliminary information about problems and
necessary responses and for obtaining manufacturers’ input.

MSHA’s reliance on the July 11, 1997 user’s notice sent by MSA
to notify the mining community of problems with the Portal-
Packs and the need for training on new donning procedures did
not reach all intended recipients. As discussed in greater
detail in our finding regarding information resources, MSA did
not have information concerning the location of over 2,000
Portal-Packs and it is, therefore, unlikely that all mines
which had purchased these units received the user’s notice. In
addition, MSA’s address list was comprised of the company’s
contacts at the mines, such as the procurement officer, and did
not include all mine safety officers and certified SCSR
trainers. As a result, all affected miners did not receive the
supplemental training recommended in the user’s notice in a
timely manner.

A PIB was distributed by MSHA to an extensive list of industry
officials on November 13, 1997, after additional technical and
policy issues were addressed, to provide comprehensive
information about the product defects and corrective actions
required. PIBs are advisory letters that MSHA mails to program
policy manual holders and other interested stakeholders to
alert them to urgent issues in mine safety. PIBs often
communicate important recall information and have manufacturer
recall notices attached which are critical to ensuring miner
safety. PIBs have a per issue distribution ranging from 10,000
to 40,000 copies, depending on the subject. In determining
whether to communicate product defect information in a PIB and
in the timing of the bulletin’s release, MSHA balances the
nature and scope of the problem against the risk of undermining
confidence in the device among the mining community. For


                        -16-
example, MSHA did not release the PIB concerning the Portal-
Pack recall until policy questions regarding decertification
and the availability of replacement models, among other issues,
were resolved and complete information could be disseminated.
As illustrated by the Portal-Pack recall, the purpose of a PIB
and policy matters entailed in the publication of these
bulletins, restrict their usefulness as a means for notifying
those who require immediate information.

While some stakeholders, particularly the UMWA, were of the
opinion that MSHA relied primarily upon PIBs to communicate
information regarding product defects, our review did not
confirm this presumption. UMWA officials indicated that they
expected timely distribution of PIBs to alert mine owners,
miners and other key industry members of product defects and
required actions. In view of their expectations, UMWA
officials were concerned that MSHA was limiting information in
order to protect MSA’s economic position. However, our
analysis found that PIBs were not MSHA’s principal means of
communicating information about product defects and were in
fact, generated in only 30 percent of the recalls examined.
Manufacturers’ notices, approved by MSHA, have frequently been
used to advise industry officials of defects identified,
actions to be taken and other important information.


MSHA’s communications and relations with SCSR manufacturers
could also be enhanced by establishing an accelerated review
and comment process prior to the release of information
concerning product defects. A manufacturer interviewed
complained that an issued PIB did not clearly distinguish the
company’s SCSRs from counterfeit units in which defects had
been identified, so that its commercial reputation was
unnecessarily damaged. Although MSHA currently tries to get
feedback on PIB drafts before release, there is inconsistency
in this effort. A consistently applied process for seeking
stakeholder comments on draft PIBs within a quick response
framework could reduce the potential for errors and avoid any
perceptions of disparate treatment.
MSHA officials concurred at the exit conference with the need
for a new process, preferably under the responsibility of the
agency’s field managers, to extend preliminary notification
about product defects identified and immediate actions required
to those industry officials most directly affected. Industry
members in need of prompt notification include mine owners and


                          -17-
operators, safety officers, miners and their representatives
and, depending upon the circumstances, might also include other
groups such as certified SCSR trainers. MSHA officials were
also receptive to offering the responsible SCSR manufacturer an
opportunity to rapidly review and provide comments on proposed
MSHA notifications concerning product defects.

B.   Policy and Procedures

As part of our review, we examined policies and procedures at
the MSHA Approval and Certification Center (A&CC) as well as
the National Office, to assess the agency’s guidance regarding
communications with stakeholders. National Office policies and
procedures do not specifically address communications on SCSRs.
Similarly, A&CC policies and procedures pertaining to recalls
did not discuss when stakeholders should be notified of product
defects, recalls or the methods of notifications, and A&CC
staff expressed ambiguity over these questions. For example,
the former A&CC Chief had been briefing important external
stakeholders both formally and informally, but this practice
lapsed after the selection of a new Chief, who expected that
National Office management controlled such contacts. The
resulting decrease in communications with key stakeholders may
have generated some of the concerns brought to our attention.

MSHA management officials stated that they informed UMWA
officials of on-going problems with the Portal-Pack in
telephone conversations. The UMWA officials, however, did not
consider that they were fully informed of the severity of the
Portal-Pack deficiencies in a timely manner. Although we are
not able to conclusively determine the extent of information
shared with the UMWA, MSHA officials were aware by the time of
our review, that communication had been inadvertently decreased
following the appointment of the new A&CC Chief.

C.   MSHA and NIOSH Communication

Coordination between MSHA and NIOSH could be improved to ensure
that officials of both agencies clearly communicate a
consistent Federal position during meetings with industry
officials and other external stakeholders. Effective
coordination also includes ensuring that commitments
significant to the other agency’s programs are fulfilled and,
when completion on schedule is not possible, revised timetables
are prepared jointly.


                         -18-
Inconsistent positions and misleading information on the
Portal-Pack were presented to the UMWA at a meeting on October
28, 1997, according to our interviews with the Director of the
Pittsburgh Research Lab, other NIOSH technical experts and MSHA
personnel. Problems with the presentation occurred because one
NIOSH technical expert did not coordinate his positions with
other NIOSH officials or MSHA. Specifically, on October 24,
1997, the UMWA requested that the Director of the Pittsburgh
Research Labs provide a specific technical expert for the
October 28 meeting in order to discuss technical findings of
field audits conducted on the Portal-Pack. Subsequently, the
Director contacted the technical expert, who was the supervisor
of the field audit program that initially detected the defects
with the Portal-Pack, and authorized his attendance at the
meeting with the UMWA.

The focus of the meeting was not to debate scientific opinion
but, according to an October 1997 letter from the Assistant
Secretary for Mine Safety and Health, it was to brief the UMWA
on the MSHA/NIOSH handling of the recall. No effort was made
by the technical expert at the Pittsburgh Research Laboratory
to coordinate his presentation either with the NIOSH CQAB staff
or with MSHA officials responsible for the recall. At the
October 28, 1997 meeting, the NIOSH technical expert presented
opinions on the safety of the recall plan that extended beyond
his direct knowledge and made misleading statements regarding
the facts. As a result, the NIOSH/MSHA regulatory
collaborative effort appeared to lack consensus in how to best
address the problems of the Portal-Pack.


Although there is room for disagreement based on scientific
differences of opinion, we found that the lack of coordination
regarding a joint official position undermined the image and
authority of both agencies. While MSHA was not responsible for
conflicting NIOSH positions on the Portal-Pack, lapses in
communication with stakeholders by both agencies had a negative
impact. The problem of coordinating external release of
information and agency positions on issues impaired interagency
collaboration, contributing to the resulting litigation by the
UMWA.

There was a paucity of documented communication between MSHA
and NIOSH over the progress of certifying the design changes


                        -19-
made in the Life-Saver 60. However, MSHA Technical Support was
informed of the delays in two separate NIOSH communications,
although it does not appear that this information was
disseminated throughout the entire organization. MSA did not
provide monthly progress reports on the production of the Life-
Saver 60 to MSHA as agreed. These communication problems
contributed to a lack of clarity in the progress of the recall.




Recommendations

We recommend that the Assistant Secretary for Mine Safety and
Health ensure, for defects identified in MSHA approved
products, that the agency:

1.   Develops a process to provide preliminary notification
     about product defects and immediate actions required to
     industry officials most directly affected.

2.   Develops a system for obtaining prompt feedback on
     proposed notifications concerning product defects from the
     responsible SCSR manufacturer.

3.   Prepares procedures, consistent with the other
     recommendations in this section, to clarify the methods,
     timing and officials responsible for notifying external
     stakeholders about product defects and recalls.

We also recommend that the Assistant Secretary for Mine Safety
and Health in conjunction with the Director, NIOSH, amend the
Memorandum of Understanding to specify how the two agencies
will ensure that a consistent Federal position is communicated
in the future to SCSR industry officials and other external
stakeholders.

MSHA Response


“In regard to MSHA approved products, we agree that MSHA should
develop a process to provide preliminary notification about
product defects and immediate actions required to industry
officials most directly affected. The mechanism for this will
be a letter from the Assistant Secretary directed to Mine


                           -20-
Operators and Miners with copies sent to other key industry
officials. This will be a relatively quick process to notify
key stakeholders about problems and immediate required actions.
Other items that can be enclosed with the letter include: user
notices, approved changes to operations manuals, and other
useful information that will help the end user to better
address the problem. A Program Information Bulletin (PIB) can
be issued later, if necessary, to provide a more detailed
explanation of the problem and follow-up corrective actions.”

“We agree that MSHA should develop procedures for obtaining
prompt feedback on proposed notifications concerning product
defects from the responsible Self-Contained Self-Rescuer (SCSR)
manufacturer. Manufacturers will be given the opportunity to
review notification letters from the Assistant Secretary, PIBs
that are in draft status, and other material that is intended
to be released by the
Agency.”

“We agree that MSHA should prepare procedures to clarify the
methods, timing and officials responsible for notifying
external stakeholders about product defects and recalls. A
Task Force will develop standard operating procedures for
notifying external stakeholders about product defects and
recalls. These procedures will identify the responsibilities
of each person involved in MSHA, and timetables for each
action.”

“We agree that MSHA, in conjunction with the National Institute
for Occupational Safety and Health (NIOSH), should amend the
Memorandum of Understanding (MOU) to specify how the agencies
will ensure that a consistent Federal position is communicated
in the future to SCSR industry officials and other external
stakeholders. We are currently in the process of modifying the
Memorandum of Understanding (MOU) between MSHA and NIOSH. The
process for developing unified communications will be addressed
in this document.”


OIG’s Conclusion

We concur with MSHA’s proposed corrective actions and consider
this recommendation resolved. In order to close this
recommendation, please provide us with a memorandum or other
documentation of: (1) the new procedure for preliminary


                          -21-
notification; (2) the standard operating procedures developed
by the task force for detailing notification of external
stakeholders about product defects and recalls; and, (3) a
completed MOU with NIOSH for ensuring consistent and unified
communications. The MOU should also clarify respective agency
roles in communication to external stakeholders.



3.   Quality Assurance


The need for manufacturers to improve quality assurance
practices is a significant factor contributing to the high
number of recalls. Insufficient quality assurance by
manufacturers is a continuing issue for MSHA and NIOSH as it
forces the expenditure of resources on responding to problems
rather than preventing them. Under the current regulatory
provisions and Memorandum of Understanding, sufficient on-site
observations are not being conducted during the manufacture of
SCSRs to ensure that the companies’ production practices are
consistent with their quality control plans and result in
products equivalent in quality to the approved prototype
models. While the complexity of SCSR technology may reasonably
account for a high level of manufacturing defects, the need to
recall and/or retrofit, at least once, every SCSR model that
uses chemical generation of oxygen and compressed oxygen,
warrants increased attention by NIOSH and MSHA to the
industry’s quality assurance practices.

The historical and continuing problems attributable to the
unique SCSR design and manufacturing requirements present
substantial challenges to both quality assurance and
reliability. According to MSHA officials, the SCSR is on the
cutting edge of technology, requiring parts to be compressed
into an extremely small container under difficult manufacturing
conditions. Current models could be considered almost
experimental in nature but the demand from users, including
MSHA, is for still smaller and lighter units with advanced
features such as voice amplification. Furthermore, it is
common for production runs of SCSR models to be completed
intermittently, as needed, in view of the relatively limited
number of units required to meet customer demand and the
service-life of the product. Thus, the incremental
improvements in on-going manufacturing processes generally


                          -22-
associated with effective quality control programs cannot be
readily applied to the production of SCSRs. To date, every
SCSR model that uses chemical generation of oxygen or
compressed oxygen has been subject to recall or retrofit.
Noted quality expert J.M. Juran in Quality by Design (1992, p.
2) states that a general benchmark for “redoing work previously
done” in US industry is about one-third. While variation in
this number occurs in different industries, a 100 percent
recall rate flags the need for a special focus on improving
quality and designs for reliability. The more precise and
complex designs required by the newest models of SCSRs can be
expected to place further pressures on the industry’s quality
control efforts.
Of the recalls and retrofits OIG examined, virtually all
involved issues of inadequate manufacturing quality or design
for reliability. Problems of improper design and manufacture
are common. Examples of poor quality or design include
improperly molded breathing hoses, devices that exploded and
SCSR pouches that became too tight to remove the device for
usage.

Documents from the NIOSH CQAB clearly raised questions about
the adequacy of MSA’s quality control in producing the Portal-
Pack. A June 27, 1997 letter by a senior NIOSH scientist
stated, in regards to the Portal-Pack, that problems with gaps
in the filter material and a faulty hinge pin on the firing
mechanism “...raise concerns over the adequacy of quality
assurance procedures used during production of these SCSR’s.”
The migration of KO2 chemical dust in the Portal-Pack was only
one of several quality assurance problems discovered that were
classified as serious defects.

The respective roles of MSHA and NIOSH in certifying the
quality assurance practices for SCSRs are contained in
42 CFR 84 and a May 4, 1995 Memorandum of Understanding. Under
the regulations, NIOSH is delegated primary responsibility for
reviewing manufacturing quality control. However, section
three of the Memorandum provides that, while duplication or
repetition of audit activities should be avoided, participation
on certification and quality assurance is to be done jointly.
Item three also states that deficiencies with SCSRs or
manufacturing sites will be resolved jointly. The Memorandum
lacks specificity to guide MSHA’s joint participation with
NIOSH in routine manufacturing site inspections.



                          -23-
More frequent on-site reviews of manufacturers’ quality
assurance practices, effectively scheduled to coincide with the
production of SCSRs, could enhance the quality of this
equipment and reduce the industry’s recall rate. Interviews
with SCSR manufacturers, NIOSH and MSHA officials confirmed
that the agencies are not jointly conducting frequent
manufacturing site reviews during times of production,
examining production run data, or systematically applying other
common quality assurance techniques. MSHA officials advised
that NIOSH schedules the on-site reviews of manufacturers’
quality assurance practices and MSHA will participate when
NIOSH extends an invitation and the company produces SCSRs for
use in mines. Officials of both agencies noted that the scope
of their responsibilities place some limits on the resources
which can be devoted to a single product. Even so, MSHA and
NIOSH officials generally concurred that increasing quality
assurance reviews of SCSR manufacturers, especially during
production cycles, could improve the quality of SCSRs and
reduce resources dedicated to administering future recalls.


Recommendations

We recommend that the Assistant Secretary for Mine Safety and
Health in conjunction with the Director, NIOSH, amend the
Memorandum of Understanding to:

1.   Clarify the respective roles of the agencies with regard
     to quality assurance; and,

2.   Commit the agencies to more frequent on-site reviews of
     the quality assurance practices of SCSR manufacturers
     during the production of this equipment.


MSHA Response

“We agree with the recommendation that MSHA and NIOSH should
amend the MOU to clarify the respective roles of the agencies
with regard to quality assurance and commit the agencies to
more frequent on-site reviews of the quality assurance
practices of SCSR manufacturers during the production of the
equipment. MSHA will conduct audits of each SCSR manufacturer
once a year. These audits will be conducted during production
runs when possible.”


                           -24-
OIG’s Conclusion

We concur with the proposed corrective actions and consider
this recommendation resolved. In order to close this
recommendation, please provide us with a copy of the completed
MOU with NIOSH clarifying quality assurance roles and
identifying procedures for increasing the frequency of on-site
reviews to coincide with production runs.



4.   Training Standards


Miners receive an annual training session on SCSRs in order to
be able to operate them in a mine emergency. We had two
findings with regard to training. First, training conducted
for the Portal-Pack recall was not completed within the 30 day
time-frame recommended by the manufacturer and approved by MSHA
in the July 11, 1997 user’s notice. Second, there is
significant support within the mining community for increasing
the frequency of training on SCSRs beyond just once a year.

Training on the Portal-Pack was not completed within 30 days of
the distribution of the user’s safety notice. OIG reviewed
MSHA’s Portal-Pack training records for 111 mines. Of 111
mines, MSHA identified 15 mines (13.5 percent) that did not
complete training by October 27, 1997. Mine inspectors visited
the mines to specifically confirm training completion in
November 1997.

We also found additional problems in MSHA’s survey of training
compliance related to data collection. MSHA did not collect
the dates when training was completed. Implementation of
training on the revised procedures within the recommended 30
days could not be fully assessed.

Timely communication of the 30 day deadline for training miners
on the new procedures for use of the Portal-Pack through a PIB
or other MSHA notification could have strengthened enforcement
of training compliance. The Office of Coal Mining Safety and
Health (CMS&H) at the Arlington Headquarters has identified
noncompliant mines and has taken steps at the district levels


                          -25-
to ensure compliance with all training directives. More active
monitoring of noncompliant mines is also being conducted to
ensure uniformity of compliance.

Proposed regulations increasing the required frequency of SCSR
training will better ensure that miners receive regular
instruction in proper SCSR operation. MSHA, NIOSH and the
manufacturers noted a need to increase the frequency with which
mine owners conduct training on the use of SCSRs. We found
substantial support among many of those interviewed regarding
the need to augment SCSR training standards to address concerns
about sufficiency.

It has been suggested that training on these units could
coincide with safety and fire training which is held every 90
days. Although changes in the frequency of training have
already been proposed by MSHA, efforts are moving slowly.
Recent decisions by MSHA to allow commingling of different
models of SCSRs, increases the need for more frequent training
efforts to ensure that miners can properly operate multiple
models of devices in a mine emergency.



Recommendations

We recommend that the Assistant Secretary for Mine Safety and
Health ensure that MSHA:

1. Reviews the frequency and type of training required to
ensure that miners will be able to effectively use SCSRs in an
emergency.

2. Expedites changes in the regulations to require SCSR
training as determined necessary.


MSHA Response

“We agree with the recommendation that MSHA should review the
frequency and type of training required to ensure that miners
will be able to effectively use SCSRs in an emergency. It will
be necessary for MSHA, in conjunction with NIOSH, to conduct
more research to determine the optimum frequency for
retraining. We will use this information along with the


                          -26-
results of previous research conducted by the Bureau of Mines
in our decision-making process. If it is determined that
changes in existing regulations are needed, an expeditious
process will be followed to make changes to regulations as
necessary.”
OIG’s Conclusion

We concur with MSHA’s proposed corrective actions and consider
this recommendation resolved. In order to close this
recommendation, please provide a memorandum directing the
initiation of a review to investigate the optimal type and
frequency of training required to ensure that miners will be
able to effectively use SCSRs in an emergency.



5.   Standards for Certification and Audit


Opportunities exist for improving the standards used in the
certification and audit of SCSRs. Specifically, we identified
two areas for improvement. First, MSHA should expedite its
pursuit of legislative changes to require environmental testing
prior to certification of equipment to improve SCSR
reliability. Second, MSHA and NIOSH need to review and update
audit sampling procedures, tests and acceptable parameters for
tests used in certification.

MSHA and SCSR manufacturers agreed in interviews that units
need to be subjected to more realistic testing to replicate
mining conditions during certification. The CSE and MSA
corporations state that they now conduct environmental testing,
however, no minimum standards govern the types of testing
performed. There is no assurance that environmental testing
conducted by manufacturers are optimized toward simulating
actual usage.

OIG reviewed 35 cases involving problem issues with SCSRs over
the last 12 years. The source of the data was case files
archived at the MSHA Approval and Certification Center. In 8
of 13 recall or retrofit cases, we found that problems could
have been detected and corrected more effectively if
environmental testing had been conducted with prototypes and a
more effective sampling of production units had been done.
Currently MSHA/NIOSH only conducts environmental testing


                           -27-
through an audit program of a small number of units which have
been certified.

Our review found that the audit program sampling procedures
need to be reviewed to ensure that they are optimal, given the
limited resources available. Concerns were raised in
interviews with MSHA technical experts that the audit program
proportional sampling being used could be improved. For
example, greater consideration could be given to organizing the
proportional sampling according to new information becoming
available on the status of SCSRs among stored, cached, machine
mounted or worn status. Conducting a proportional sample
simply based on the model population may not be the best
sampling method. Priority in the sample could be given to
SCSRs that are worn or machine mounted and, therefore, subject
to greater wear and tear.

Manufacturers stated that different testing equipment at
various testing sites may not be calibrated or used
consistently to certify or audit their equipment. We found
that different testing equipment and technicians are being used
at testing sites within NIOSH. While the PRL and the CQAB have
different roles, calibration of equipment and testing
procedures do not appear to be closely coordinated. CSE and
MSA stated that while their prototype models passed company
tests designed to reproduce tests used in certification, the
prototypes did not pass tests conducted by NIOSH.

There was also concern expressed that breathing tests with
human test subjects do not allow for a reasonable range of
human responses. SCSRs would pass manufacturer breathing tests
but then fail with a NIOSH test subject. The test could
establish more empirical parameters to benefit SCSR design and
development and avoid the appearance of subjectivity.

NIOSH acknowledged that testing standards are not always
expressed in scientific formula. This makes it difficult for
manufacturers to reproduce tests for design and product
development. An example provided by the manufacturers for
needed scientific formulas is in the area of vibration testing.
Manufacturers want vibration testing standards expressed with
vibration tables rather than just time on a rotop machine so
that standards can be reproduced.

Reviewing whether equipment is calibrated accurately and used


                          -28-
consistently across sites is complex and highly technical. We
did not find strong linkages between the PRL and the CQAB
testing facilities that would ensure consistency of equipment
and testing procedures. MSHA could initiate a collaborative ad
hoc committee comprised of NIOSH and MSHA technical experts to
test equivalency of calibration in equipment and adopt standard
testing procedures. Procedures governing operation of testing
equipment should be standardized. The goal of the committee
would be to issue a report making recommendations in these
areas.

We have identified areas of testing and certification that
could benefit from MSHA/NIOSH review. Environmental testing is
needed as part of the certification to reduce the number of
recalls. Areas of sampling, calibration and use of testing
equipment across sites require review to improve regulatory
effectiveness.


Recommendations

1.   We recommend that the Assistant Secretary   for Mine Safety
     and Health and the Director, NIOSH, under   the agencies’
     Memorandum of Understanding, form a joint   ad hoc committee
     to review audit sampling, calibration and   consistent usage
     of testing equipment.

2.   We also recommend that the Assistant Secretary for Mine
     Safety and Health encourage the Director, NIOSH, to
     expedite a legislative proposal to mandate environmental
     testing as part of the certification procedure in 42 CFR
     84.

MSHA Response

“We agree with the recommendation that MSHA and NIOSH, under
the agencies’ MOU, should form a joint ad hoc committee to
review audit sampling, calibration and consistent usage of
testing equipment. This committee will be formed utilizing a
cross section of all MSHA personnel involved in the SCSR
approval and enforcement program. The committee will be tasked
with reviewing the audit sampling program, and the calibration
and consistent usage of testing equipment.

“We agree that MSHA should encourage NIOSH to expedite a


                           -29-
legislative proposal to mandate environmental testing as part
of the certification procedures in Title 42, Code of Federal
Regulations, Part 84. The Assistant Secretary will communicate
this to the Director of NIOSH. A joint committee consisting of
MSHA and NIOSH representatives have, among other things,
already addressed this.”


OIG’s Conclusion


We concur with MSHA’s proposed corrective actions and consider
this recommendation resolved. Due to the need for
participation of NIOSH in implementing this recommendation, and
in consideration of current NIOSH disagreement with the
formation of an ad hoc committee to review audit sampling,
calibration and consistent usage of testing equipment, we agree
that the implementation of an ad hoc committee can wait until
after NIOSH has completed an internal review. Since the field
visits conducted to complete this report, NIOSH has initiated
action to optimize the collaboration between the PRL and the
CQAB by initiating an examination to redefine their roles and
responsibilities.

In order to close this recommendation, please provide us with a
copy of the MOU and documentation of MSHA’s request to NIOSH
that NIOSH expedite a legislative proposal to mandate
environmental testing as part of the certification procedures
in Title 42, Code of Federal Regulations, Part 84.



6.   Developing Information Resources


Our review found that insufficient information on the numbers
and location of Portal-Packs in the mines was due, in part, to
MSHA’s dependence on MSA for information and the need to
increase information resources. In addition, we found that
current MSHA data collection efforts need review. The
inaccurate estimates of the numbers and use of Portal-Packs in
the mines hampered MSHA’s effectiveness in administering the
recall. MSA initially reported to MSHA that an estimated 5,490
Portal-Packs were in use on August 15, 1997. On November 14,
1997, 7,533 units were discovered, which represents a percent


                           -30-
change increase of 37 percent. This discrepancy exceeded the
20 to 28 percent range of variances between initial estimates
and actual numbers of SCSRs recalled in the other cases we
reviewed.

The May 4, 1995 memorandum of understanding between MSHA and
NIOSH states that MSHA needs to be able to determine the
numbers and usage of deficient SCSR models deployed in the
mines. To adequately execute this responsibility, conducting
ongoing SCSR data collection is necessary. Lacking current
information on the numbers and usage of the Portal-Pack had
negative implications for the recall.

Limited information on the numbers and usage of the Portal-Pack
in the mines impeded an accurate proportional audit of the
different categories of cached, machine mounted and miner worn
units which have varying degrees of risk for deficiency. Lack
of information also resulted in a six-month delay in accurately
determining the numbers of units in the mines and contributed
ambiguity in assessing the extent of the problem. MSHA’s
recent change in decreasing the time allowed for correcting
deficiencies through recall or retrofit, increases the
importance of maintaining accurate current data on the numbers,
location and usage of SCSRs.

Due to the limitations imposed by the marketplace, depending on
companies for information on the number and location of SCSRs
is not a sound operating procedure. CSE, Drager, Ocenco, and
MSA stated that they are only able to maintain rough estimates
of the numbers and location of SCSRs, as they make significant
portions of SCSR sales to distributors who will not reveal
subsequent customer information. Sales through distribution
networks, subsequent transportation of SCSRs by mining
companies and other sources of relocation inhibit accurate
tracking from beyond where the SCSR was sold.

CMS&H has initiated efforts to improve data collection
regarding SCSRs. CMS&H is collecting data that has a direct
bearing on SCSR use within the mine, such as average mining
height in inches, the travel distance from the point of deepest
penetration in the mine to the surface in feet, commingling of
different models of SCSRs, and other critical safety
information requiring continuous review and analysis. Because
of the constant physical changes in mining conditions, CMS&H
estimates that the data they are collecting has utility for a


                          -31-
maximum of six-months, after which it becomes gradually
obsolete. Our review supports the new information collection
activity as essential to MSHA’s regulation, but also recognizes
the need to increase the frequency of this effort.

CMS&H officials stated that they have not reviewed the data
collection form with internal MSHA experts or tested the survey
with a sample of inspectors who will obtain the information
from the mines and complete the form. Pilot testing a data
collection form with a sample of those expected to complete it
ensures the clarity of the questions and should result in more
accurate and consistent data.

In summary, we found that insufficient information on the
Portal-Packs in the mines contributed to the difficulty of the
recall. We suggest that current data collection efforts need
to be increased and that methods should be reviewed.




Recommendations

We recommend that the Assistant Secretary for Mine Safety and
Health ensure that:

1.   CMS&H’s data collection activities be pilot tested with
     MSHA districts for receiving editorial feedback.


2.   CMS&H increase the frequency of surveying SCSRs and coal
     mining conditions to twice a year for development of
     adequate information resources.

MSHA’s Response

“We agree that MSHA's Coal Mine Safety and Health (CASH) data
collection activities regarding SCSRs should be pilot tested
with the MSHA Districts for the purpose of receiving editorial
feedback. This will be accomplished before the next survey is
conducted, which is currently scheduled to begin in April 1999.
MSHA initiated the initial survey due to an immediate need of


                           -32-
the information. Subsequently, we have met with MSHA
inspection supervisors and inspector representatives to discuss
the continued need for this type of information. As a part of
that process the SCSR data collection Form was revised, and
includes instructions on how to complete the Survey Form. This
revised Form is currently under review by the National Council
of Field Labor Locals. Upon final approval, CASH plans on
sending the revised Form to the Districts and requests that at
least one inspector per District conduct a survey, complete the
Form, and provide feedback to Headquarters on any changes that
need to be made to revise the Form to accurately capture the
information needed.”

“We also agree that there is a need for MSHA to conduct a
survey to more accurately assess SCSR use and mining conditions
affecting escape. Although mine operators do change the types
of SCSR protection they provide, and mining conditions are
continually changing, MSHA believes that an annual survey would
capture this information and would provide the necessary
information needed to assess the scope of any potential
problems. However, we will evaluate the information we receive
during our next survey, currently scheduled to be conducted
during the 3rd quarter of FY 1999, and compare this information
with data from the survey that was completed in FY 1998. If
this information indicates significant changes have taken place
since the FY 1998 survey, MSHA will modify the annual survey
requirement accordingly.”



OIG’s Conclusion

On the basis of MSHA’s response, we consider this
recommendation resolved. To close this recommendation, we
would appreciate receiving a copy of the new survey form and a
memo directing survey operations be performed once a year.
The memo should direct that an assessment be conducted as to
whether an increase in survey frequency is needed based on
changes in conditions from 1998 to 1999. We agree that the
decision to expand survey operations to twice a year needs to
be supported by data findings.



7.   An MSHA Focal Point for SCSR Recalls


                           -33-
The recent reorganization to develop a focal point for handling
recalls has not been fully completed. The reorganization was
conducted to ensure a seamless transfer of responsibilities and
efficient administration of recalls. Specifically, MSHA did
not have designated personnel dedicated to conducting recalls
or establish clear contact points for communication so that
operations were optimally organized. NIOSH, MSHA and corporate
interviewees complained that a focal point for conducting
recalls was lacking.

While the reorganization is a positive development for
efficiency reasons, additional details require clarification.
In particular, the new position description for the persons
delegated to handle SCSR recalls needs to be revised to reflect
new responsibilities and duties. SCSR recalls are not “special
projects,” which is the description of the current assignment,
but a regularly recurrent part of MSHA activity. Dedicated
personnel and resources for this ongoing effort require
identification.

We found that policies and procedures that existed before the
reorganization lacked specificity and need updating to reflect
changes in the way that recalls are handled. Aspects of
communication and coordination with NIOSH also need to be
clarified. Policies and procedures need to be written in order
to protect against vulnerabilities presented by personnel
changes.

Technical Support Division management has verbally promised
personnel and technical resources to support recalls. However,
policies and procedures should be developed to identify the
specific staff who will be responsible for recalls and to
clarify the details as to how A&CC will provide support to
MSHA’s Pittsburgh and Safety and Health Technology Center. An
organizational chart could provide further clarification.
Without such policies and plans, MSHA is vulnerable to
personnel changes and recall knowledge being concentrated in
one individual.


Recommendations

We recommend that the Assistant Secretary for Mine Safety and


                          -34-
 Health ensure that MSHA:

 1.   Develop written policies and procedures incorporating the
      A&CC Division and the Pittsburgh and Safety and Health
      Technology Center which specify responsibilities for
      conducting recalls and the A&CC resources to be shared.

 2.   Revise the position description for the employee assigned
      responsibility for recalls to reflect the new
      responsibilities and priorities established by the
      reorganization.


 MSHA Response

 “We agree with the recommendation for MSHA to develop written
 policies and procedures incorporating both its Approval and
 Certification Center (A&CC) Division and the Pittsburgh Safety
 and Health Technology Center. These policies and procedures
 will be developed specifying the responsibilities for
 conducting recalls and the A&CC resources that will be shared,
 In addition, an organizational chart will be developed which
 further illustrates the responsibilities during SCSR
 investigations.”

“We also agree that the position description for the employee
 assigned the responsibility for SCSR recalls, Dr. Jeffery
 Kravitz, should be revised to reflect the new
 responsibilities and priorities established by the
 organization. Dr. Kravitz's position description will be
 revised from "Chief, Special Projects" to adequately reflects
 new responsibilities while integrating these with other
 existing responsibilities including Mine Emergency Operations
 and Mine Emergency Response Training.”

 OIG’s Conclusion

 We concur with MSHA’s proposed corrective actions and consider
 this recommendation resolved. In order to close this
 recommendation, please provide us with the new written policies
 and procedures, a revised organizational chart and the new
 position description.


 Major Contributors to this Report:


                            -35-
George T. Fitzelle
Veronica M. Campbell
Roger N. Britts
Teserach Ketema
Brent A. Carpenter
Dennis J. Raymond




                       *    *     *




In preparation of this report we solicited comments from the
National Institute of Occupational Safety and Health. The
NIOSH comments can be found in Appendix C. We have responded
to NIOSH comments in a letter located in Appendix D. We
appreciate NIOSH’s cooperation during this evaluation, as well
as their contributions to the final report to MSHA.




                           -36-
                                                Appendix A
                                               Page 1 of 2

                        Appendix


                        Glossary


A&CC                          MSHA Approval and Certification
                              Center in Triadelphia WV

Bituminous Coal Association   Industry association for coal
                              mines

Bruceton                      Location of MSHA facility in PA
                              located on the grounds of the
                              NIOSH PRL

CASH                          MSHA Coal Mine Safety and
                              Health

CBD                           Commerce Business Daily

CFR                           Code of Federal Regulations

CMS&H                         The Office of Coal Mining
                              Safety & Health

CSE                           Manufacturer of self-contained
                              self-rescuers

DOL                           Department of Labor

Drager                        Manufacturer of self-contained
                              self-rescuers

GAO                           General Accounting Office

MSHA                          Mine Safety and Health
                              Administration

PRL                           NIOSH Pittsburgh Research
                              Laboratory

SCSR                          Self-Contained Self-Rescuer

                          -37-
                                   Appendix A
                                  Page 2 of 2

MSA           Mine Safety Appliance Company -
              Manufacturer of self-contained
              self-rescuers

Morgantown    NIOSH WV facility

OACE          Office of Analysis, Complaints
              and Evaluation

OIG           Office of the Inspector General

NIOSH         National Institute of
              Occupational Safety and Health

Ocenco        Manufacturer of self-contained
              self-rescuers

PIB           Program Information Bulletin

PRB           DOL Procurement Review Board

PRL           NIOSH Pittsburgh Research
              Laboratory

UMWA          United Mine Workers Union

CQAB          NIOSH Certification and Quality
              Assurance Branch




             -38-
